Audit Report




OIG-11-018
SAFETY AND SOUNDNESS: Failed Bank Review of Valley
Capital Bank, N.A.
November 8, 2010




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                           November 08, 2010


            OIG-11-018

            MEMORANDUM FOR JOHN G. WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Michael J. Maloney /s/
                                  Director, Fiscal Service Audits

            SUBJECT:              Failed Bank Review of Valley Capital Bank, N.A.


            This memorandum presents the results of our review of the failure of Valley Capital
            Bank, N.A. (Valley Capital). Valley Capital opened in November 2006 and operated
            out of one location in Mesa, Arizona, under the name of Premier Commercial Bank
            Arizona. Its parent company was Premier Commercial Bancorp. The ownership
            changed in September 2007, and the name was changed to Valley Capital. The
            Office of the Comptroller of the Currency (OCC) closed Valley Capital and
            appointed the Federal Deposit Insurance Corporation (FDIC) as receiver on
            December 11, 2009. As of September 30, 2009, the bank had $40.3 million in
            total assets. FDIC estimated that the loss to the Deposit Insurance Fund is $7.4
            million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Valley Capital that was limited to (1) ascertaining the
            grounds identified by OCC for appointing the FDIC as receiver and (2) determining
            whether any unusual circumstances exist that might warrant a more in-depth
            review of the loss. In performing our review we (1) examined documentation
            related to the appointment of FDIC as receiver, (2) reviewed OCC reports of
            examination, and (3) interviewed personnel in OCC’s Special Supervision Division.

            We conducted this performance audit during August and September 2010 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and conclusions
            based on our audit objectives. We believe that the evidence obtained provides a
            reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-018
Page 2

Causes of Valley Capital’s Failure
Valley Capital had a short life span. It was chartered in November 2006 and failed
December 2009. It failed primarily because the board and management pursued a
growth strategy that permitted high concentrations in commercial real estate loans
without implementing adequate concentration risk management practices and
ensuring effective underwriting and credit administration. During a series of
transactions which ultimately led to the change of control of the bank in September
2007, Valley Capital inherited non-earning assets from its former holding company
in the form of prepaid taxes, deferred taxes, and goodwill, which amounted to
almost 30 percent of the bank’s total assets. At OCC’s direction, the deferred
taxes of $332,000 were written off in 2008. The deferred tax write-off and
excessive executive salaries resulted in high operating losses. Valley Capital’s
unsound and unsafe management practices, combined with a declining real estate
market, caused a rapid deterioration in asset quality, significant loan losses, and
capital depletion.


Conclusion
Based on our review of the causes of Valley Capital’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated that it agrees with our conclusion about the primary causes
of Valley Capital’s failure. OCC also stated that it had no concern with our
determination that an in-depth review of the failure is not warranted. The response
is provided as Attachment 1. A list of the recipients of this memorandum is
provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-6512 or
Myung Han, Audit Manager, at (202) 927-4878.

Attachments
         OIG-11-018

       Attachment 1
Management Response
                                                   OIG-11-018

                                                  Attachment 2
                                                    Distribution



Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
